APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

Court of appeals opinion,
August 26, 2020 .............................................. 1a
District court order,
February 21, 2018........................................ 17a
Magistrate judge recommendation,
January 2, 2018 ............................................ 18a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14241

UNITED STATES of America,
Plaintiff-Appellee,
v.
Darrius Marcel MASTIN,
Defendant-Appellant.

Filed: August 26, 2020
Before: PRYOR, Chief Judge, GRANT, Circuit Judge,
and ANTOON, * District Judge.
OPINION
GRANT, Circuit Judge.
Darrius Mastin was convicted of being a felon in possession of a firearm. The gun was detected when a fugitive
task force executed two arrest warrants at a hotel room in
Montgomery, Alabama. Mastin was not the subject of either warrant—but he was inside the hotel room when
*
Honorable John Antoon II, United States District Judge for the
Middle District of Florida, sitting by designation.

(1a)

2a
members of the task force arrived. Unfortunately for him,
a gun fell from his waistband as he complied with a police
order to get on the ground and crawl out of the room. The
officers secured the weapon, and Mastin was promptly detained.
Mastin now appeals his conviction. He first suggests
that the police violated the Fourth Amendment by executing the arrest warrants at the hotel room without sufficient certainty that the subjects of the warrants were present. He next argues that it was not reasonable under the
Fourth Amendment for the police to order him to get
down on the ground and crawl out of the room. Finally, he
claims that the district court abused its discretion and violated his Sixth Amendment rights by excluding certain
topics from the scope of cross-examination of law enforcement witnesses. We affirm his conviction.
I.
The events leading to Mastin’s conviction arose after a
fugitive task force received felony arrest warrants for two
gang members named Trudyo Hines and Taboris Mock.
Those warrants concerned a robbery committed with
handguns—though the men were also wanted for questioning about a related homicide. Officers learned that the
two men were likely staying at hotels in Montgomery, Alabama. In the officers’ experience, fugitives would often
register hotel rooms under the names of relatives or girlfriends to avoid apprehension. Their experience
prompted an investigation into local hotels, which revealed that Nakita Rogers, Hines’s girlfriend, had
checked into a Country Inn and Suites with at least one

3a
other person. 1 The officers confirmed Rogers’s room
number and surveilled the hotel.
Shortly after midnight, several vehicles pulled into the
parking lot. Three men—two of whom matched the descriptions of Hines and Mock—and three women exited
the vehicles and went into the hotel. The officers confirmed with the front desk in real time that one of the
women was Nakita Rogers. A short time later, two men
and one woman exited the hotel and left in one of the vehicles.
Because the officers did not know whether Hines and
Mock were still in the hotel, were in the vehicle that had
just departed, or had split up, they broke up into two
teams. One team planned to conduct a traffic stop on the
vehicle, while the other planned to make contact at the hotel room (with the goal of keeping either half of the group
from alerting the other).
When the team at the hotel arrived on the correct
floor, the door to the targeted room was slightly ajar. As
the team set up, the door swung open; a man stood inside
the doorway with his hands in the pocket of his hoodie.
The officers immediately recognized that the man was
neither Hines nor Mock. The officers also recognized
Nakita Rogers standing behind the man in the doorway
with at least one other female in the room. The officers
ordered the man—who they eventually learned was Mastin—to take his hands out of his pockets. Next, they told
the room’s occupants to get on their knees with their

1
While the trial transcript lists the girlfriend’s first name as Nikita,
we follow other references in the record and in Mastin’s briefing and
use Nakita.

4a
hands up, and then to crawl out into the hallway one by
one.
Mastin went first. As he crossed the threshold of the
door, a 9mm pistol fell out of his waistband. In response,
one of the officers pulled the weapon out of Mastin’s
reach. The officers detained him and repeated the order
for the women to exit the room. Once everyone was out,
the officers entered the room to ensure that no one else
remained hiding inside. While conducting their sweep, the
officers saw a total of three handguns in the room, all in
plain view. Checking the identity of the room’s occupants
against computer records revealed that Mastin was on
probation following a robbery conviction.
Meanwhile, as the first team attempted to execute the
arrest warrants at the hotel, the second team conducted
the planned traffic stop. Hines was in the vehicle and the
officers arrested him. Mock was nowhere to be found at
that point; he was arrested later that night at a different
hotel room rented in his girlfriend’s name.
Mastin was indicted on one count of possessing a firearm as a felon. He pleaded not guilty and moved to suppress the firearm. In support of his motion, he argued that
the search of the hotel room was unlawful in the absence
of a warrant and that his weapon was found in violation of
the Fourth Amendment.
In a Report & Recommendation that followed an evidentiary hearing, a magistrate judge recommended denying the motion to suppress. The magistrate concluded
that, although the officers did not have articulable suspicion to justify a stop of Mastin under the Terry line of
cases, the officers did have reason to believe that the hotel
was the dwelling of Hines or Mock, and that at least one
of the men was likely present. The magistrate therefore

5a
concluded that the officers were entitled to enter the room
and attempt to execute the warrant under Payton v. New
York, which recognized officers’ “limited authority” to enter a home to execute an arrest warrant. 445 U.S. 573, 603,
100 S.Ct. 1371, 63 L.Ed.2d 639 (1980). The district court
accepted the recommendation over Mastin’s objection.
After the suppression hearing, the government filed a
motion in limine to prevent Mastin from relitigating issues relating to the suppression at trial. Specifically, the
government sought to prevent Mastin from suggesting
that the United States violated his constitutional rights
when they detained him. The government argued that
Mastin’s only purpose for offering such evidence would be
to cast doubt on the legality of the seizure—a decision reserved for, and already decided by, the district court.
Mastin objected, arguing that the limitations would prejudice his right to a fair trial. At a hearing addressing the
motion in limine, Mastin explained that his theory of the
case was that the officers were lying—that they did not
actually ask him to go to the hallway, but instead burst
into the room because they were looking for additional evidence. He argued that he should be allowed to cross-examine the officers on a few related topics: whether or not
they had a search warrant, the exact kind of equipment
they had with them (which included a battering ram and a
shield), and whether it would have been logistically feasible to arrest Mock and Hines outside of the hotel. He argued that these questions directly challenged the credibility of the officers.
The district court broadly ruled that Mastin was not
permitted to continue raising arguments about the legality of the seizure. To back up that ruling, the court prohibited questioning the officers about the equipment they
carried, whether they had a search warrant, what other

6a
firearms they recovered from the room, and whether
Nakita and the other woman in the room had pistol permits. The court did give Mastin some leeway, ruling that
he could ask the officers about the general sequence of
events, their purpose for being at the hotel, what they did
when they got to the door of the room, whether they burst
into the room, and where they found the gun. The court
also explained that it would not prevent Mastin from impeaching the testimony of the officers, and that Mastin
could approach the bench during trial if he felt that the
officers said something that would open the door to one of
the prohibited subjects. Mastin repeated his objections
throughout the trial, but the court overruled him each
time.
Mastin was convicted of being a felon in possession of
a firearm. He now appeals.
II.
“Because rulings on motions to suppress involve
mixed questions of fact and law, we review the district
court’s factual findings for clear error, and its application
of the law to the facts de novo.” United States v. Magluta,
44 F.3d 1530, 1536 (11th Cir. 1995). “Our review is not
moored to the evidence presented at the suppression
hearing; we are free to look at the whole record.” United
States v. Campbell, No. 16-10128, 2020 WL 4726652, at *5
(11th Cir. Aug. 14, 2020). We review “limitations on the
scope of cross-examination for ‘a clear abuse of discretion.’ ” United States v. Rushin, 844 F.3d 933, 938 (11th
Cir. 2016) (quoting United States v. Maxwell, 579 F.3d
1282, 1295 (11th Cir. 2009)). However, we review de novo
a defendant’s claim that the government violated his Sixth
Amendment rights. See id.

7a
III.
A.
We first consider whether the officers were authorized
to enter the hotel room while attempting to execute the
arrest warrant. The Fourth Amendment protects the
“right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures.” U.S. Const. amend. IV. A hotel room—though
not what ordinarily comes to mind when one pictures a
“house”—qualifies as a place in which the people remain
“secure” against unreasonable searches and seizures. “No
less than a tenant of a house, or the occupant of a room in
a boarding house, a guest in a hotel room is entitled to
constitutional protection against unreasonable searches
and seizures.” Stoner v. California, 376 U.S. 483, 490, 84
S.Ct. 889, 11 L.Ed.2d 856 (1964) (internal citation omitted); see also United States v. Forker, 928 F.2d 365, 370
(11th Cir. 1991) (“[A] person does not forfeit fourth
amendment protections merely because he is residing in
a motel room.”).
That means we need to decide whether the officers
were entitled to enter the hotel room in their attempt to
arrest Mock or Hines. The short answer is yes. An “arrest
warrant founded on probable cause implicitly carries with
it the limited authority to enter a dwelling in which the
suspect lives when there is reason to believe the suspect
is within.” United States v. Bervaldi, 226 F.3d 1256, 1263
(11th Cir. 2000) (quoting Payton, 445 U.S. at 603, 100
S.Ct. 1371). So entering a home to carry out an arrest warrant is reasonable under the Fourth Amendment if the officer has a reasonable belief both “that the location to be
searched is the suspect’s dwelling” and “that the suspect
is within the residence at the time of entry.” Id. (quoting
Magluta, 44 F.3d at 1535).

8a
When determining whether an officer reasonably held
those two beliefs, we consider the totality of the circumstances—including “common sense factors.” Id. (citing
Magluta, 44 F.3d at 1535). A college student, for instance,
might fairly be assumed to reside at his parent’s address
when school is not in session. See id. And an officer’s mistaken belief that a suspect resided at a dwelling or was
there at a particular time does not necessarily render a
search unreasonable or prevent the admission of evidence
obtained while attempting to arrest the suspect at that location—so long as the officer’s belief was reasonable in
the first place. See id. at 1262–69.
The facts here offer plenty of support for the officers’
testimony that they believed the hotel room was either
Mock’s or Hines’s dwelling at the time of entry. They believed the two men were “running together” because of an
ongoing dispute with another gang. Neither man was
likely to rent a hotel room in his own name—they were
wanted for armed robbery, as well as for questioning
about a homicide, and would make light work for the officers seeking to arrest them if they revealed their whereabouts by renting a hotel room. But the fugitive task force
knew that Rogers—Hines’s girlfriend—had rented a
room under her name. And they knew that she had rented
that room with another individual present. It was not a
leap for the task force to believe that she likely rented the
room on behalf of Hines.
The facts also show that law enforcement reasonably
believed that Hines or Mock was inside the hotel room.
After surveilling the premises, the task force knew that
six other individuals, including two that matched Hines’s
and Mock’s description, had entered the hotel. Of course,
some of those individuals later left the hotel—which is exactly why the task force split into two teams. But the team

9a
that remained at the hotel did so under the reasonable belief that either Hines or Mock had remained behind.
The fact that the officers could not be completely certain does not change that calculus. Consider the result under an alternative rule; it would be a pretty neat trick if
two fugitives, along with a few other friends, could split up
into two hotel rooms such that police could not be absolutely certain which one they were in. And contrary to
Mastin’s contention, the fact that the police knew that he
was not Hines or Mock did not remove their ability to enter the hotel room. After all, the “ultimate touchstone of
the Fourth Amendment is ‘reasonableness,’ ” and it was
hardly unreasonable for the police to ensure that neither
of their arrest targets were in the room. Brigham City v.
Stuart, 547 U.S. 398, 403, 126 S.Ct. 1943, 164 L.Ed.2d 650
(2006). Because the officers reasonably believed that the
hotel room was the dwelling of Hines, Mock, or both, and
that at least one of them was inside, they did not violate
the Fourth Amendment by entering the hotel room to execute the arrest warrants. 2
B.
Mastin’s fallback point is that, even if executing the
warrant at the hotel room was proper, his seizure was unreasonable. In particular, he argues that requiring him,
an innocent bystander who was not sought by police, to
crawl out of the hotel room was unreasonable and violated
the Fourth Amendment. That argument, however, runs

2
The district court also held that Mastin failed to demonstrate a
reasonable expectation of privacy in the hotel room. Because Fourth
Amendment standing is not a jurisdictional issue, we decline to reach
this additional reason to uphold the officers’ entry. See United States
v. Ross, 963 F.3d 1056, 1061–62 (11th Cir. 2020) (en banc).

10a
headlong into more than one precedent, and those precedents logically extend to cover this case.
For starters, it has long been understood that police
can detain the occupants of a dwelling while they execute
a search warrant. In Michigan v. Summers, the Supreme
Court held that “a warrant to search for contraband
founded on probable cause implicitly carries with it the
limited authority to detain the occupants of the premises
while a proper search is conducted.” 452 U.S. 692, 705, 101
S.Ct. 2587, 69 L.Ed.2d 340 (1981) (footnote omitted). And
that rule applies to bystanders as well as to the subject of
the investigation. In other words, officers can briefly detain anyone within a dwelling while they execute a search
warrant there.
The primary rationale for the Summers rule is not
hard to figure out. Safety is paramount—for both officers
and bystanders. Detaining third parties during the execution of a search warrant is reasonable because of the potential risk if bystanders could not be detained. See id. at
702–03, 101 S.Ct. 2587. The Court explained that, even in
the absence of evidence suggesting a “special danger to
the police,” executing the warrant “may give rise to sudden violence or frantic efforts to conceal or destroy evidence.” Id. at 702, 101 S.Ct. 2587. So the rule the Court
set out did not rely on particular evidence of special danger because “[t]he risk of harm to both the police and the
occupants is minimized if the officers routinely exercise
unquestioned command of the situation.” Id. at 702–03,
101 S.Ct. 2587.
The Summers case, of course, was about search warrants, and this case is about arrest warrants. But the
Summers rationale applies equally in both scenarios. We
have come close to saying so, explaining that Summers

11a
stands for the proposition that “a police officer performing his lawful duties may direct and control—to some extent—the movements and location of persons nearby,
even persons that the officer may have no reason to suspect of wrongdoing.” Hudson v. Hall, 231 F.3d 1289, 1297
(11th Cir. 2000). We now explicitly extend the Summers
rule to cover arrest warrants as well as search warrants:
officers may briefly detain those on the premises while
they seek to execute an arrest warrant. 3
Any contrary rule would directly undermine the reasoning in Summers, as the facts of this case well illustrate:
the task force officers were hunting violent felons who
were known to be armed and who may have been implicated in a homicide. If the officers were not allowed to
briefly detain Mastin, and were instead required—as
Mastin argues—to simply ask him to “show his hands or
to step aside,” then the officers would be required to expose themselves to an unacceptable degree of risk. And
The other circuits that have opined on this issue have reached differing conclusions. For example, the Sixth Circuit has declared that
“the police have the limited authority to briefly detain those on the
scene, even wholly innocent bystanders, as they execute a search or
arrest warrant.” Cherrington v. Skeeter, 344 F.3d 631, 638 (6th Cir.
2003). The Ninth Circuit, by contrast, has declined “to extend the categorical Summers rule to arrest warrants.” Sharp v. County of Orange, 871 F.3d 901, 915 (9th Cir. 2017). The Ninth Circuit appeared
to refuse to extend Summers, however, in part because of its belief
that the Summers rule would preclude “a fact-bound inquiry” inquiry
into the method of detention. See id. (discussing United States v. Enslin, 327 F.3d 788 (9th Cir. 2003)). Not so; even where categorically
authorized to detain a bystander, the police might still violate the
Fourth Amendment via their method of detention. The Supreme
Court engaged in that exact analysis in Muehler v. Mena, first holding that Summers authorized a detention, then evaluating the use of
handcuffs to “effectuate” that detention. 544 U.S. 93, 99, 125 S.Ct.
1465, 161 L.Ed.2d 299 (2005).
3

12a
that risk would extend to the other occupants of the room,
who could have been caught in the crossfire if violence
broke out.
Mastin, after all, was concealing a firearm in his waistband—and that only became apparent to the officers after
Mastin was forced to crawl on the ground. If he had been
a criminal associate of Hines and Mock whom the officers
could only ask to “step aside,” then the police would have
searched the room for two armed robbery suspects while
one of their armed associates stood directly behind or
alongside them. The absurdity of a rule requiring that outcome is apparent.
Our extension of the Summers rule to cover the execution of arrest warrants is also consistent with the decision in Maryland v. Buie, where the Supreme Court held
that law enforcement may conduct a “protective sweep”
of a residence when executing an in-home arrest if officers
have a reasonable belief the protective sweep is necessary
for their safety. 494 U.S. 325, 336–37, 110 S.Ct. 1093, 108
L.Ed.2d 276 (1990). That rule would be worthless if the
officers, upon finding someone hiding in a closet, were forbidden from making a brief, reasonable detention simply
because the person was not a subject of the arrest warrant.
Of course, just because officers are entitled to detain
bystanders while executing warrants does not mean that
any manner of detention will always be reasonable. Even
if “lawful at its inception,” a seizure “can violate the
Fourth Amendment if its manner of execution unreasonably infringes interests protected by the Constitution.” Illinois v. Caballes, 543 U.S. 405, 407, 125 S.Ct. 834, 160
L.Ed.2d 842 (2005). But here the district court correctly
concluded that the seizure of Mastin was reasonable. The
arrest warrants in question were for violent crimes, and

13a
the suspects were alleged to be armed gang members. Requiring Mastin to lower himself to the ground allowed officers to peer over him and look for any emerging threats
from the room (say, a gunman popping out of a closet).
And the Constitution does not require us to argue with the
sound police practice of requiring potentially dangerous
individuals to come out of areas that the police do not control (such as the hotel room) and into areas that police do
control (such as the hallway). Summers applies to the execution of arrest warrants, and Mastin’s Fourth Amendment rights were not violated.
C.
Mastin’s last argument is that he was deprived of his
Sixth Amendment right to a fair trial because the district
court improperly limited his right to cross-examine the
police witnesses and develop his preferred defense theory: that the officers found a gun after they entered the
hotel room and then concocted the story that it fell out of
his waistband. He argues that he should have been allowed, under the Confrontation Clause, to cross-examine
the prosecution’s main witness on topics such as whether
law enforcement obtained a search warrant and which
kind of equipment the task force brought to the hotel
room, arguing that the answers to those questions would
either reveal the witness’s “biases, prejudices or ulterior
motives” or undermine the witness’s “truthfulness” about
“what exactly occurred at the hotel.” His challenge fails
because the district court’s actions were well within its ordinary discretion to manage the trial.
To be sure, that discretion has its boundaries. The
right to question one’s accusers, as set out in the Confrontation Clause, is one of them. “In all criminal prosecutions,
the accused shall enjoy the right . . . to be confronted with
the witnesses against him.” U.S. Const. amend. VI. So the

14a
district court’s ordinary discretion “to rule on the admissibility of evidence, including the power to limit cross-examination” is tempered by “the guarantee of the Sixth
Amendment’s Confrontation Clause that a criminal defendant has the right to cross-examine prosecutorial witnesses.” Maxwell, 579 F.3d at 1295 (citation and internal
quotation marks omitted). Cross-examination, after all,
“is the principal means by which the believability of a witness and the truth of his testimony are tested.” Davis v.
Alaska, 415 U.S. 308, 316, 94 S.Ct. 1105, 39 L.Ed.2d 347
(1974). Still, the right to cross-examine “is not unlimited.”
United States v. Garcia, 13 F.3d 1464, 1468 (11th Cir.
1994). Once the Confrontation Clause has been satisfied
by sufficient examination, “further questioning is within
the district court’s discretion.” Id. And when considering
whether the Confrontation Clause has been satisfied, for
these purposes at least, the jury’s ability to assess the
credibility of the witness is the decisive factor. The question “is whether a reasonable jury would have received a
significantly different impression of the witness’ credibility had counsel pursued the proposed line of cross-examination.” Id. at 1469.
Mastin has not met that standard. We have held that
“the district court enjoys wide latitude to impose reasonable limits on cross-examination based on, among other
things, confusion of the issues.” Maxwell, 579 F.3d at 1296
(citation and quotation marks omitted). Here, the questions Mastin wished to pursue were “merely cumulative
or of dubious relevance.” United States v. Leavitt, 878
F.2d 1329, 1340 (11th Cir. 1989). Questions such as
whether the officers had a search warrant would have had
little bearing on the main testifying officer’s credibility or
supposed “biases, prejudices or ulterior motives.” Instead, that question would have suggested that the officers had no authority to enter the hotel room—an issue of

15a
law that the district court had already decided against
Mastin. And Mastin has failed to show how, say, questions
regarding the precise equipment the officers carried,
would bear on the credibility or potential bias of the officers at all, much less how the answers to those questions
would impair the credibility of the officer to such a degree
that his testimony would be in doubt. Nor has Mastin
shown how his proposed questions would substantially undermine the truthfulness of the witness’s narrative. Instead, they would have tended—as the district court
noted—to confuse the issues before the jury.
The same goes for Mastin’s proposed questions about
whether other firearms were in the room and whether the
two women present had pistol permits. Relevance is not
obvious; whether other guns were in the room and
whether other people were permitted to have those guns
has little or nothing to do with whether Mastin possessed
a gun. But even setting that aside, Mastin’s claim fails. We
cannot see how hearing either of these (factually true)
points from the officer himself would have damaged his
credibility with the jury or otherwise revealed “biases,
prejudices or ulterior motives.”
The district court therefore did not violate Mastin’s
Sixth Amendment right to confront the witnesses against
him. The questions he wished to ask would not have been
probative of any bias or lack of truthfulness; they would
have confused the issues. And for the same reasons, the
district court did not otherwise abuse its discretion by restricting cross-examination on these topics.

16a
*

*

*

Having found no error in the district court’s rulings
either at the suppression hearing or at trial, we uphold
Mastin’s conviction.
AFFIRMED.

17a
APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
No. 16-cr-542-LSC-SRW
UNITED STATES of America
v.
Darrius Marcel MASTIN
ORDER ACCEPTING REPORT
AND RECOMMENDATION
COOGLER, United States District Judge.
This court has reviewed the Report and Recommendation of the Honorable Susan Russ Walker, United
States Magistrate Judge [Doc. 84] entered the 2nd day of
January, 2018. Defendant made objections to the Report
and Recommendation and this Court has reviewed those
as well. This court has made a de novo determination of
all of the issues addressed in the Report and Recommendation as well as the objections.
It is Ordered that the Report and Recommendation be
and hereby is accepted as entered. This court adopts the
Report and Recommendation as the Order of this court as
if the same were set forth at this point in extenso. Defendant’s Motion to Suppress Evidence and Statements [Doc.
84] is DENIED.
Done this 21st day of February, 2018.

18a
APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
No. 16-cr-542-MHT-SRW
UNITED STATES of America
v.
Darrius Marcel MASTIN
Signed: January 2, 2018
RECOMMENDATION
OF THE MAGISTRATE JUDGE
WALKER, United States Magistrate Judge.
This case is before the court on defendant Darrius
Mastin’s motion to suppress (Doc. 57), and the government’s response (Doc. 61). The court held an evidentiary
hearing on the motion on December 5, 2017. For the reasons discussed below, the court finds that the motion to
suppress is due to be denied.
FACTS
On January 19, 2016, Magistrate Jonathan Davis of
the District Court of Montgomery, Alabama, found probable cause to arrest Trudyo 1 Hines and Taboris Mock on
1
The arrest warrant uses the spelling, “Truduo”; however, in a contemporaneous memorandum (Defendant’s Exhibit 13), the case agent
uses “Trudyo.” The court adopts the second spelling, which it believes
to be correct, for purposes of this Recommendation.

19a
the charge of first degree robbery pursuant to Ala. Code
§ 13A-8-41(a)(1). Magistrate Davis signed arrest warrants for both individuals. Government’s Ex. 1, 2. According to a memorandum prepared on January 21, 2016, by
Sgt. Kevin Byrd, a Montgomery Police Department
(“MPD”) Officer and a member of the United States Marshals’ Gulf Coast Regional Task Force (the “Task Force”),
the robbery charges arose out of a 2:00 a.m. robbery and
assault by Hines and Mock on a male victim at Club Big
Boyz in Montgomery on Sunday, January 17, 2016, during
which the men stole approximately $3,000 in jewelry. See
Defendant’s Exhibit 13 at 1. Sgt. Byrd testified at the suppression hearing in this case that there were no personal
injuries in the robbery, but handguns were used. According to the memorandum, Hines and Mock were identified
as known members of a local street gang known as
“ ‘DOA’/Dope Boys of America,” and the victim is a member of “the ‘Blood’ street gang.” Id. The memorandum indicates that Hines and Mock were also wanted for questioning “in reference to a homicide” that occurred in
Montgomery on January 18, 2016, which “stemmed from
the original robbery.” Id.
Sgt. Byrd received copies of the arrest warrants from
the MPD on January 19, 2016 for execution. The Task
Force, comprised of officers from a number of different
agencies, is responsible for finding and arresting violent
fugitives based on warrants transmitted by local jurisdictions. In this case, Task Force officers reviewed webbased databases and attempted to identify current locations for Hines and Mock. They also interviewed family
members and friends, and spoke with several confidential
sources to determine where Hines and Mock could be
found. Officers learned that both Hines and Mock, who
were known associates, frequented hotels in the city of

20a
Montgomery. In Sgt. Byrd’s experience, 2 wanted individuals can often be found at hotels and motels, where they
are not usually checked in under their own names, but under the name of a girlfriend, relative, or someone else willing to obtain a room for them. Sgt. Byrd anticipated that
Hines and Mock might be found together.
On January 19, 2016, members of the Task Force and
the MPD’s “Security Threat Group,” see Defendant’s Ex.
13, 3 began to search hotels in Montgomery. They knew
that Hines’ girlfriend was Nakita Rogers, and they took
pictures of Hines, Mock and Rogers with them. After
checking numerous hotels, officers traveled to the Country Inn and Suites on Carmichael Road late in the evening
where they found that Nakita Rogers had rented a room
(room 311). Officers confirmed this by showing the picture
of Rogers to the desk clerk, determining from the clerk
that although Rogers was alone when she paid for the
room, there was at least one other individual in her vehicle, a silver SUV.
The Task Force sent a plain clothes undercover officer
to the third floor of the hotel to walk by room 311, but he
or she could not hear any noise coming from the room.
Sgt. Byrd concluded that either there was nobody in the
room, or someone was possibly sleeping there. Officers
then set up surveillance from several of their vehicles,
which were in radio contact with each other, in the parking lot of the hotel and on Carmichael Road. Sometime
around 12:30 a.m., the officers saw a silver SUV pull into
When Sgt. Byrd testified in December 2017, he had been with the
MPD for more than 22 years, and had been assigned to the Task
Force for approximately three years.
2

3
During Sgt. Byrd’s testimony, this group was also referred to as
the “MPD gang unit.”

21a
the parking lot, along with a white Ford Expedition and a
small black car. All three vehicles parked on the left side
of the hotel together, and officers observed three black females and three black males getting out. The three men
stood around the cars while the three females entered the
hotel from the side entrance. Viewing the men from the
Task Force vehicles at a distance of some 80 to 100 yards
away, and without being able to make out faces clearly at
night, officers believed that the men generally matched
descriptions of Hines and Mock based on their physical
characteristics, including race, height and weight. 4
Officers saw the three females go to the front desk,
where they remained for three to five minutes. One of the
women appeared to be Rogers. The females left the front
desk and walked back down the main corridor of the hotel
on the first floor. Officers contacted the front desk by telephone, and the desk clerk confirmed that one of the
women was Rogers. Meanwhile, the males stood at the vehicles for a few seconds after the women left, then went
into the side entrance of the hotel.
The officers discussed an “operation plan” to attempt
to make contact with these individuals. Id. at 2. They intended to determine first if the group actually had gone
into room 311 by doing another “walk by” to listen for
noise coming from the room. However, before the officers
could act, two of the males and one female came out of the
side entrance to the hotel and got into the Expedition,
backed out, and began to drive toward the exit. Sgt. Byrd
believed that the males “could have been either [Hines or
4
Hines and Mock were also black males. As the defendant showed,
they differed to some extent from the defendant and from each other
in height, weight, and complexion—but not to an extent that would
render the officers’ perception of a match unreasonable.

22a
Mock], or it could have been both.” According to him, the
officers “knew that half of the people were possibly still in
the hotel room and half of the people were in the vehicle.
We didn’t know if Taboris Mock or Trudyo Hines were in
the vehicle or if they were still in the hotel room, so we
had to make a decision as to which way we wanted to go.”
The officers decided that part of the team would conduct
a traffic stop on the Expedition, while the others would go
up to the hotel room. They wanted to do this simultaneously so that half of the group could not tip the others off
and enable them to flee; accordingly, the officers who
were following the vehicle gave the other officers time to
get to the hotel room before initiating the traffic stop.
Some five to eight officers went up to the third floor
and approached room 311. As they arrived, they saw that
the door was not fully closed; it was open approximately
one to two inches. The officers could hear both male and
female voices inside the room. As the officers set up in
front, defendant Darrius Mastin opened the door. His
hands were in the pocket of his jacket or hoodie. Officers
immediately ordered defendant to take his hands out of
his jacket, place them over his head, and lie face down on
the ground. They recognized Nakita Rogers directly behind the defendant in the doorway, halfway in the hall of
the room and halfway in the bathroom, and gave her the
same order. They also saw a third person (later identified
as Nakita Rogers’ sister, Sabrina Rogers) standing behind the door of the hotel room and told her to do the
same. The officers ordered everyone to the ground with
their hands up so they could determine that nobody was
holding a firearm and limit the individuals’ mobility.
Officers did not recognize the defendant, but they
knew immediately that he was not Mock or Hines. The officers remained in the hallway of the hotel and ordered all

23a
three individuals to crawl to their position. Defendant,
who was closest to the door, came out first on his hands
and knees. As he crossed the threshold of the hotel room,
a black semiautomatic handgun (later identified as a Para
9mm handgun) fell out of his waistband directly underneath him, onto the floor of the hallway. One of the Task
Force officers, Deputy U.S. Marshal David Onafry, yelled
“gun,” reached up with his foot, stepped on the gun and
pulled it out of the reach of the defendant. Defendant was
taken into custody to secure him for officer safety, and the
gun was seized. 5 After defendant was detained, the two
females were also ordered to crawl out into the hallway
and secured.
Task Force officers then entered room 311 to make
sure no other individuals were present. Because the officers “saw Nakita Rogers in there, which is a known associate of Trudyo Hines,” they thought it was “possible that
somebody else could be hiding in that room and somebody
else could be armed.” Sgt. Byrd testified, “I don’t know
who else could be in the room. Somebody could have been
in that room before I ever got there. Mr. Hines could have
been asleep in the bed before I ever got there.” When Sgt.
Byrd entered the room and looked behind the door, he
saw a pink-handled firearm and a chrome firearm in an
open black purse on a chair. See Defendant’s Ex. 13 at 2.
He told other officers that the firearms were present and
continued to clear the room. Toward the rear of the room
Sgt. Byrd observed the handle of a silver and black semiautomatic handgun inside a second purse that was sitting
on the counter on the left side of the room. Id. He again
5
Sgt. Byrd did not know whether or not Marshal Onafry took the
handgun and secured it at that point or not. Sgt. Byrd said that he
himself did not pick it up then. However, the gun was clearly secured
by one of the officers.

24a
notified the other officers of the location of the firearm.
Id. After the officers completed their search for other individuals in the room, and found no one else present, Sgt.
Byrd was notified by another officer that Hines had been
taken into custody in the white Expedition. Id. The officer
indicated that Hines had been found in possession of a
Ruger P90 45 caliber firearm with an extended magazine,
and the driver had been armed with a Glock 9mm semiautomatic handgun, although the latter had a license to
carry the weapon. Id.
At that time, Sgt. Byrd began to identify the other occupants of the hotel room. Defendant was found through
a computer check—run, according to Sgt. Byrd, “for warrants and to make sure he was not wanted”—to have been
convicted of first degree robbery in 2010 and to be on probation. Id. The two females were also identified, and Sgt.
Byrd learned that they had licenses to carry the weapons
found in the room. Id. Sgt. Byrd then advised a detective
with the Criminal Investigation Division (CID) of the
MPD that Hines was in custody, and told him about the
identities of the other occupants of the room and the firearms. Id. The detective requested that all three be transported to the CID for questioning in light of the homicide
the day before which allegedly was connected to the robbery, and requested that the firearms be collected for
safekeeping. Id. Officers asked Nakita Rogers for permission to search the room, and she refused. All three individuals were taken to the CID.
Officers continued to search for Taboris Mock. After
interviewing several of his family members, and learning
that Mock had been staying with his girlfriend at various
hotels and friends’ houses, officers continued to search hotels in the Montgomery area. They learned that Mock’s
girlfriend, Deshre Benson, had rented a room at the

25a
Roadway Inn on Troy Highway. Id. They knocked on the
door of the room, and took Mock into custody at approximately 5:30 a.m.
I. DISCUSSION
1. Introduction
Defendant contends that defendant’s handgun was
seized without a warrant in violation of the Fourth
Amendment to the United States Constitution, which protects the “right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures.” United States v. Place, 462 U.S.
696, 700, 103 S.Ct. 2637, 77 L.Ed.2d 110 (1983). See generally Doc. 57. He also contends, at least implicitly, that he
was detained in violation of the Fourth Amendment. See
California v. Hodari D., 499 U.S. 621, 624, 111 S.Ct. 1547,
113 L.Ed.2d 690 (1991) (“We have long understood that
the Fourth Amendment’s protection against ‘unreasonable . . . seizures’ includes seizure of the person[.]”). In addition, at the suppression hearing in this case, defendant
challenged the lawfulness of two statements that he gave
to officers after the weapon was seized and he was detained.
2. Expectation of Privacy
The court begins by observing that the weapon possessed by defendant was not discovered by officers as the
result of a search, either of defendant’s person or of
Nakita Rogers’ hotel room. Instead, the officers observed
the weapon when it fell from defendant’s waistband to the
floor of a public corridor at the Country Inn and Suites
hotel. There is no question that the officers were lawfully
present in the hotel corridor outside Rogers’ room when
the weapon was observed and seized. Nothing before the
court suggests that the third floor hallway of the Country

26a
Inn and Suites was anything other than a public hallway,
and defendant has neither argued, nor produced any evidence to establish, that he had a reasonable expectation of
privacy in the hotel corridor. See United States v. Roby,
122 F.3d 1120, 1125 (8th Cir. 1997) (Defendant “had an expectation of privacy in his Hampton Inn hotel room. But
because the corridor outside that room is traversed by
many people, his reasonable privacy expectation does not
extend so far. Neither those who stroll the corridor nor a
sniff dog needs a warrant for such a trip.”); Marullo v.
United States, 328 F.2d 361, 363 (5th Cir. 1964) (“a transient occupant of a motel must share corridors, sidewalks,
yards, and trees with the other occupants. Granted that a
tenant has standing to protect the room he occupies, there
is nevertheless an element of public or shared property in
motel surroundings that is entirely lacking in the enjoyment of one’s home.”); cf. United States v. Miravalles, 280
F.3d 1328, 1333 (11th Cir. 2002) (Tenants in a high-rise
apartment building which was “open and accessible not
only to all the many tenants and their visitors, to the landlord and all its employees, to workers of various types, and
to delivery people of all kinds, but also to the public at
large” did not have a reasonable expectation of privacy in
the common areas of their building.); United States v.
Maestas, 639 F.3d 1032, 1038 (10th Cir. 2011) (“In general, most circuit courts have found that ‘shared’ or ‘common’ areas in apartment complexes or multi-unit dwellings, such as hallways, entryways, and basements, are not
areas over which an individual tenant can have a reasonable expectation of privacy.”). Further, in this case, defendant did not establish a reasonable expectation of privacy
in the hotel room itself, such that the question of whether
the adjacent hallway could be considered the curtilage of
that room might even arise. The room was paid for and
registered to Nakita Rogers, and nothing before the court

27a
indicates that defendant—whose presence was not made
known to hotel management, and who was not observed
to carry a suitcase or bag into the hotel or to have any obvious personal belongings in the room—was even an overnight guest. 6 See U.S. v. Cooper, 203 F.3d 1279, 1284 (11th
Cir. 2000) (“To determine whether an individual has a reasonable expectation of privacy in a hotel room, courts have
looked to such indicia as whether the individual paid
and/or registered for the room or whether the individual’s
personal belongings were found in the room.”).
3. Initial Seizure of the Defendant
However, even though the officers were lawfully present in the hotel corridor, the court still must examine
whether—when they observed defendant standing at the
partially open door of Rogers’ hotel room—they were constitutionally permitted to order defendant to take his
hands out of his jacket, place them over his head, and
crawl out of the doorway of the room, effecting a brief seizure of his person. See United States v. Mendenhall, 446
U.S. 544, 553-554, 100 S.Ct. 1870, 64 L.Ed.2d 497 (1980)
(“a person is ‘seized’ . . . when, by means of physical force
or a show of authority, his freedom of movement is restrained. . . . Examples of circumstances that might indicate a seizure, even where the person did not attempt to
leave, would be the threatening presence of several officers, the display of a weapon by an officer, some physical

6
Defendant maintained at the suppression hearing that the occupants of the hotel room, including the defendant, “were all there lawfully as guests. . . . They’re spending time at the hotel.” However, defendant produced no evidence to this effect. See United States v. Harris, 526 F.3d 1334, 1338 (11th Cir. 2008) (“The accused bears the burden of demonstrating a legitimate expectation of privacy in the area
searched.”).

28a
touching of the person of the citizen, or the use of language or tone of voice indicating that compliance with the
officer’s request might be compelled.); West v. Davis, 767
F.3d 1063, 1070 (11th Cir. 2014) (“ ‘[t]he Fourth Amendment applies to all seizures of the person, including seizures that involve only a brief detention short of traditional arrest.’ ”) (citation omitted).
A. Terry Stop
The United States contends in its response to the motion to suppress (Doc. 61 at 3-4)—and argued at the suppression hearing itself—that defendant’s seizure is
properly analyzed as a Terry stop. See Terry v. Ohio, 392
U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968). To effect a
lawful Terry stop, officers must, under the totality of the
circumstances, and based on the collective knowledge of
the officers involved, have an objectively reasonable suspicion that defendant had engaged, or was about to engage, in a crime. United States v. Acosta, 363 F.3d 1141,
1144-45 (11th Cir. 2004). The burden of proof on a motion
to suppress relating to the reasonableness of warrantless
seizure rests with the prosecution; “[t]he Government
must demonstrate that the challenged action falls within
one of the recognized exceptions to the warrant requirement, thereby rendering it reasonable within the meaning
of the fourth amendment.” United States v. Freire, 710
F.2d 1515, 1519 (11th Cir. 1983).
In this case, the court finds that the United States has
failed to meet its burden under Terry as to the initial seizure of the defendant. When the officers first observed the
defendant—who, according to Officer Byrd, “was standing there kind of surprised that we were at the door”—
they immediately were aware that he was neither Mock
nor Hines, and therefore was not the subject of either of
their arrest warrants. No suspicious odor emanated from

29a
the hotel room, and defendant had no drugs in his possession, nor does the government contend that officers believed drugs to be present in the room. Officers had not
received a tip from any informant concerning the defendant, and they were not responding to a complaint from the
hotel or anyone else. Further, no evidence before the
court suggests that the hotel room was in a high crime
area, that defendant exhibited nervous or evasive behavior, or that he had embarked on unprovoked flight. Nor
did the officers cite any objective reason to believe that
defendant himself was a gang member, or that he might
have been an accomplice to the robbery a few days before
that had occasioned the arrest warrants, or that he might
have been engaged in receiving or fencing the property
that was stolen. Also, Officer Byrd made no allegation at
the suppression hearing that defendant possibly had been
stationed as a lookout at the hotel door, or that he was
otherwise assisting Hines or Mock to elude arrest. Indeed, Byrd testified, in response to questioning at the
hearing, that there was no criminal activity going on in the
hotel room that he knew of. At most, as far as the officers
were aware at the point that they encountered the defendant, he was simply in the process of exiting a hotel room
occupied by the girlfriend of a wanted individual, at a time
when that individual, or his associate, might or might not
also have been present in the room. If officers suspected
any specific criminal activity to be afoot in which defendant himself was involved, they have wholly failed to inform
the court what that activity might have been.
The court is aware that some jurisdictions have concluded that police need not have a particularized suspicion
of any specific crime to conclude that they have reasonable suspicion to conduct a Terry stop. See, e.g., United
States v. Guardado, 699 F.3d 1220, 1225 (10th Cir. 2012)

30a
(“Direct evidence of a specific, particular crime is unnecessary” for reasonable suspicion.); United States v. Gatamba, 419 Fed.Appx. 529, 532 (5th Cir. 2011) (detention
was lawful because officer “had particularized facts supporting a finding that some criminal activity might be
afoot. . . . [W]e do not require “the police to articulate particularized facts that support a finding that a particular
specific crime is afoot.”) (citation omitted) (emphasis in
original); United States v. Pack, 612 F.3d 341, 355-56 (5th
Cir. 2010), opinion modified on denial of reh’g, 622 F.3d
383 (5th Cir. 2010) (concluding that police need not have a
“particularized suspicion of a specific crime,” and noting
that the Supreme Court “has often spoken of the wrongdoing itself in general terms”) (citations omitted); United
States v. Fields, 2014 WL 5147610, at *4 (W.D. Mo. Sep.
10, 2014), report and recommendation adopted, 2014 WL
5171951 (W.D. Mo. Oct. 14, 2014), aff’d, 832 F.3d 831 (8th
Cir. 2016) (Officers “need not be able to identify the specific crime the officer is investigating; rather[,] the officer
need only reasonably suspect that the individual is engaged in some kind of criminal activity.”) (citations omitted); Mocek v. City of Albuquerque, 3 F.Supp.3d 1002,
1078 (D. N.M. 2014), aff’d, 813 F.3d 912 (10th Cir. 2015)
(“For reasonable suspicion to exist, officers are not required to observe the equivalent of direct evidence of a
particular specific crime as long as there is reasonable
suspicion of criminal activity. . . . Likewise, to establish
that reasonable suspicion exists, officers have no obligation to articulate a specific offense which they believe the
suspect may have committed.”) (citations and internal
marks omitted); Tom v. Voida, 1991 WL 343377, *4 (S.D.
Ind. May 3, 1991), aff’d, 963 F.2d 952 (7th Cir. 1992) (“the
law only requires that the officer have specific and articulable facts giving rise to reasonable suspicion of criminal
activity, not a specific crime.”).

31a
However, to this court’s knowledge, neither the Supreme Court nor the Eleventh Circuit has itself directly
held that it is constitutionally sufficient for officers to articulate facts which support only a reasonable suspicion of
general criminality. See 4 W. LaFave, Search & Seizure
§ 9.5(c) (5th ed. 2012) (Noting that “the Supreme Court
has never expressly ruled on” the question of “whether
the available information must support a conclusion that
there is reasonable suspicion of a particular offense . . ., or
whether it should suffice that there is reasonable suspicion of criminality generally”—and that “the lower courts
are divided on the issue.”). Also, even if the United States
need not always specify the particular criminal activity
reasonably suspected by officers to be afoot, it is clear, at
a minimum, that many courts have considered the government’s failure to point to suspicion of a specific crime significant in evaluating the totality of the circumstances.
See, e.g., United States v. Campbell, 741 F.3d 251, 261 (1st
Cir. 2013) (“A warrantless traffic stop satisfies the Fourth
Amendment’s reasonableness requirement . . . if ‘police
officers have a reasonable suspicion of wrongdoing—a
suspicion that finds expression in specific, articulable reasons for believing that a person may be connected to the
commission of a particular crime.’ ”) (quoting United
States v. Lee, 317 F.3d 26, 31 (1st Cir. 2003)) (emphasis
added); United States v. See, 574 F.3d 309, 314 (6th Cir.
2009) (fact that officer “did not suspect the men of a specific crime” was a factor in concluding that, in the totality
of the circumstances, the officer did not have reasonable
suspicion that criminal activity was occurring.); Johnson
v. Campbell, 332 F.3d 199, 210 (3d Cir. 2003) (fact that officer “has not enunciated a logical series of inferences that
would lead a reasonable person to believe that [defendant]
was about to undertake a specific crime” was significant
in totality of circumstances analysis.); Duran v. City of

32a
Douglas, Ariz., 904 F.2d 1372, 1378 (9th Cir. 1990) (“No
matter how peculiar, abrasive, unruly or distasteful a person’s conduct may be, it cannot justify a police stop unless
it suggests that some specific crime has been, or is about
to be, committed, or that there is an imminent danger to
persons or property. Were the law any different—were
police free to detain and question people based only on
their hunch that something may be amiss—we would
hardly have a need for the hundreds of founded suspicion
cases the federal courts decide every year, for we would
be living in a police state where law enforcement officers,
not the courts, would determine who gets stopped and
when.”); United States v. Gallinger, 227 F.Supp.3d 1163,
1170 (D. Idaho 2017) (Officer “had no particular information that criminal activity was actually afoot and nothing to link [defendant] to the possible criminal activity,
aside from his location in the vicinity of the 911 call location. . . . [T]hese bare facts do not amount to reasonable
suspicion that [defendant] was involved in criminal activity.”); United States v. Dixon, 157 F.Supp.3d 1025, 1030
(D. Kan. 2016) (fact that “[w]hen the officer seized the occupants of the car, he did not suspect the men of a specific
crime” mitigated against reasonable suspicion under the
totality of the circumstances); Amili v. City of Tukwila,
31 F.Supp.3d 1274, 1282–83 (W.D. Wash. 2014) (a person
conduct “cannot justify a police stop unless it suggests
that some specific crime has been, or is about to be, committed, or that there is an imminent danger to persons or
property.”) (citation omitted); Martiszus v. Washington
Cty., 325 F.Supp.2d 1160, 1170 (D. Or. 2004) (Sheriff conceded he could not “ ‘piece together any facts about [defendant’s] conduct . . . that would tie to any specific
crime.’ ”) (citation omitted).
Thus, in the absence of controlling precedent in the
Supreme Court or the Eleventh Circuit to the contrary,

33a
this court has weighed the lack of articulable, objective
facts supporting a reasonable suspicion that defendant
was involved in any specific criminal activity when he was
initially seized as one factor in assessing the totality of the
circumstances in this case. See Campbell, 332 F.3d at 210
(“The availability of objective facts justifying a seizure is
of paramount importance. As the Supreme Court has emphasized, the ‘demand for specificity in the information
upon which police action is predicated is the central teaching of . . . Fourth Amendment jurisprudence.’ ”) (citing
U.S. v. Cortez, 449 U.S. 411, 418, 101 S.Ct. 690, 66 L.Ed.2d
621 (1981)). But the court has not relied exclusively on the
absence of suspicion of a particular crime. It finds, in addition, based on the totality of all the circumstances, that
under the Terry standard, the government has not put
forward a minimal level of objective manifestation—other
than defendant’s possible proximity to one or more persons having outstanding robbery warrants—upon which
officers could base a reasonable suspicion that defendant
himself was, or was about to be, engaged generally in any
criminal activity at all. Proximity to a wanted individual is
simply insufficient to meet the reasonable suspicion
standard. See Family Serv. Ass’n ex rel. Coil v. Wells
Twp., 783 F.3d 600, 605 (6th Cir. 2015) (“ ‘[M]ere propinquity to others independently suspected of criminal activity does not, without more,’ support a Terry stop or a seizure.”) (quoting Ybarra v. Illinois, 444 U.S. 85, 91–93, 100
S.Ct. 338, 62 L.Ed.2d 238 (1979)); Matz v. Klotka, 769 F.3d
517, 523 (7th Cir. 2014) (“We have recognized that simply
being in the presence of others who are themselves suspected of criminal activity is insufficient standing alone to
establish particularized suspicion for a Terry stop and
frisk.”). See also Illinois v. Wardlow, 528 U.S. 119, 123,
120 S.Ct. 673, 145 L.Ed.2d 570 (2000) (“While ‘reasonable
suspicion’ is a less demanding standard than probable

34a
cause and requires a showing considerably less than preponderance of the evidence, the Fourth Amendment requires at least a minimal level of objective justification for
making the stop.”) (citation omitted); Cortez, 449 U.S. 411
at 417, 101 S.Ct. 690, 66 L.Ed.2d 621 (“An investigatory
stop must be justified by some objective manifestation
that the person stopped is, or is about to be, engaged in
criminal activity.”) (citations omitted).
B. Seizure for Officer Safety During Attempt to
Serve Arrest Warrants
This holding, however, is not fatal to the United
States’ attempt to justify the officers’ initial seizure of the
defendant. Although the court does not find this seizure
permissible under Terry, another body of Fourth Amendment case law must be considered. In this case, officers
were in the process of preparing to attempt to serve lawful
arrest warrants, supported by probable cause, on Mock
and/or Hines at the time that they encountered the defendant. “[F]or Fourth Amendment purposes, an arrest
warrant founded on probable cause implicitly carries with
it the limited authority to enter a dwelling in which the
suspect lives when there is reason to believe the suspect
is within.” Payton v. New York, 445 U.S. 573, 603, 100
S.Ct. 1371, 63 L.Ed.2d 639 (1980). Under Payton, “in order for law enforcement officials to enter a residence to
execute an arrest warrant for a resident of the premises,
the facts and circumstances within the knowledge of the
law enforcement agents, when viewed in the totality, must
warrant a reasonable belief that the location to be
searched is the suspect’s dwelling, and that the suspect is
within the residence at the time of entry.” United States
v. Magluta, 44 F.3d 1530, 1535 (11th Cir. 1995); see also
United States v. Williams, 871 F.3d 1197, 1201 (11th Cir.
2017). The Payton warrant requirement also applies to

35a
guest rooms in commercial establishments, such as hotels.
See United States v. Carrion, 809 F.2d 1120, 1127–28 (5th
Cir. 1987) (footnote omitted) (citing United States v. Baldacchino, 762 F.2d 170, 175–76 (1st Cir. 1985); United
States v. Newbern, 731 F.2d 744, 748 (11th Cir. 1984); and
United States v. Jones, 696 F.2d 479, 486–87 (7th Cir.
1982)). “Neither Payton nor this court’s Fourth Amendment jurisprudence requires law enforcement officers to
be absolutely certain that a suspect is at home before entering a residence to execute an arrest warrant.” Magluta, 44 F.3d at 1538.
Applying the first part of the Payton test, the court
relies on “common sense factors” to determine whether
the arresting officers harbored a reasonable belief that either Meeks or Hines was residing in Rogers’ hotel room.
Id. at 1535. In the instant case, on January 19, 2016, the
officers knew that (1) earlier on that same day, a Montgomery, Alabama, district court judge had found probable
cause to believe that both defendants had been involved in
a first degree robbery on January 17, 2016, at Club Big
Boys in Montgomery; (2) a homicide had occurred on the
following day (January 18, 2016) which officers believed to
be related to the robbery; (3) interviews with family,
friends, and confidential sources had revealed that Mock
and Hines, who were known associates, frequented hotels
in the city; (4) suspects who did not wish to be apprehended usually did not use their own names to register at
hotels, but often used the name of a girlfriend or someone
else to get them a room; (5) Hines’ girlfriend’s name was
Nakita Rogers; (6) a Nakita Rogers had rented a room at
the Country Inn and Suites hotel; (7) the desk clerk at the
Country Inn and Suites hotel had confirmed, after viewing a photograph shown to him or her by the officers, that
the guest named Nakita Rogers was, in fact, the person
whom officers had identified as Hines’ girlfriend; and (8)

36a
the desk clerk had indicated that at the time Rogers had
registered and paid for the room, there was at least one
other individual in her vehicle (a silver SUV) along with
her. The court concludes that this information was sufficient for the officers to form a reasonable belief that Hines
(or possibly both Mock and Hines) was staying in Rogers’
hotel room.
As to the second part of the Payton test, the officers
also had a reasonable belief that either Hines or Mock, or
possibly both, was present in Rogers’ hotel room at the
time they were preparing to enter. Around 12:30 a.m., the
officers conducting surveillance in the parking lot of the
hotel observed a silver SUV pull up along with a white
Ford Expedition and a small black car; they saw three
black females and three black males get out of the vehicles; from a distance of 80 to 100 yards, and under the constraints of nighttime visibility, they believed that the
three males—whose faces were not visible at that distance, who were not standing in a well-lit area, and who
were dressed in what Officer Byrd described as “thick,”
“bulky,” “baggy” clothing, such as jackets and hoodies—
generally matched the description of Hines and Mock;
they saw the three females, one of whom appeared to be
Rogers, approach the front desk; they phoned the front
desk and confirmed that one of the females had indeed
been Rogers; they saw the three males enter the hotel
through the side entrance; they decided to approach the
individuals in the hotel rather than in the open area of the
parking lot to avoid the risk of the individuals’ fleeing in
different directions, and the possibility that, if they were
armed, they could fire at officers or take someone in a
nearby restaurant hostage; while the officers prepared to
go to Rogers’ hotel room, two of the males and one female
came back out of the side entrance of the hotel, got into

37a
the Expedition, and left the parking lot; the officers believed that the two males could have been Hines and
Mock, but also believed that the remaining male could
have been Hines or Mock; the officers decided that one
part of their group would attempt to stop the vehicle while
the others approached the hotel room, and that they
would act simultaneously so that those in the hotel room
could not tip off those in the Expedition, or vice versa; the
officers who approached the hotel room could hear both
male and female voices in the room; while the officers
were setting up in the hallway, the door came partly open
and the officers saw defendant in the doorway with his
hands in his pocket; officers observed that Rogers was in
the room directly behind the defendant, and another occupant was also in the room; and, while the officers knew
immediately that the defendant was not Hines or Mock,
they did not know with certainty how many people would
be in the room, or whether another person might have
come in earlier. As noted above, law enforcement officers
are not constitutionally required to be absolutely certain
that a suspect is present before entering to execute an arrest warrant; a reasonable belief is sufficient. See Magluta, 44 F.3d at 1538. The court concludes that the arresting officers, who had a reasonable belief that Hines and/or
Mock was staying in the room, also held a reasonable belief that Hines or Mock was present at the time they encountered the defendant, under “the facts and circumstances within the knowledge of the law enforcement
agents, when viewed in the totality[.]” Id. at 1535.
Given that the officers had the authority to enter the
hotel room to attempt to serve one or more arrest warrants supported by probable cause, they also had the authority, while they attempted to execute the warrants, to
establish control of and secure the premises, both inside
and immediately outside the room. This authority—which

38a
was sufficient to permit officers to seize the defendant
briefly by causing him to take his hands out of his pockets,
place them over his head, and crawl out of the doorway of
the room into the hall—follows from Payton itself, as well
as the Supreme Court’s ruling in Michigan v. Summers,
452 U.S. 692, 705, 101 S.Ct. 2587, 69 L.Ed.2d 340 (1981),
and the Eleventh Circuit’s interpretation of these decisions. The rule established in Payton was premised on the
idea that “an arrest warrant founded on probable cause
implicitly carrie[d] with it the limited authority to enter a
dwelling in which the suspect live[d] when there [wa]s reason to believe [that] the suspect [wa]s within.” Payton,
445 U.S. at 603, 100 S.Ct. 1371. In Summers, the Supreme
Court took this reasoning a step further, holding that “a
warrant to search for contraband founded on probable
cause implicitly carries with it the limited authority to detain the occupants of the premises while a proper search
is conducted.” 452 U.S. at 705, 711, 101 S.Ct. 2587.
In weighing whether the search in Summers was reasonable[,] the Court first found that detention represents only an incremental intrusion on personal liberty
when the search of a home has been authorized by a
valid warrant. . . . Against that interest, it balanced
preventing flight in the event that incriminating evidence is found; minimizing the risk of harm to the officers; and facilitating the orderly completion of the
search.
In executing a search warrant officers may take reasonable action to secure the premises and to ensure
their own safety and the efficacy of the search. . . . The
test of reasonableness under the Fourth Amendment
is an objective one. . . . Unreasonable actions include

39a
the use of excessive force or restraints that cause unnecessary pain or are imposed for a prolonged and unnecessary period of time.
Los Angeles Cty., California v. Rettele, 550 U.S. 609, 613–
14, 127 S.Ct. 1989, 167 L.Ed.2d 974 (2007) (citations and
internal marks omitted).
The Eleventh Circuit has not expressly determined
whether or not the reasoning of Summers categorically
applies to the execution of arrest warrants, in addition to
search warrants. See Gomez v. United States, 601
Fed.Appx. 841, 847 (11th Cir. 2015) (unpublished)
(“Whether the categorical detention exception recognized
by Summers in a search warrant context applies with
equal force to the execution of an arrest warrant is an
open question in this Circuit.”). However, the Court has
noted that “[o]ther circuits have indicated that the Summers exception also applies in the context of the police executing arrest warrants.” Id. at 847-48 (citing United
States v. Enslin, 327 F.3d 788, 797 n. 32 (9th Cir. 2003)
(“concluding that, ‘[a]lthough Summers involved a search
pursuant to a search warrant rather than a consent search
to execute an arrest warrant, much of the analysis remains applicable’ and applying Summers in the arrest
warrant context”) 7; Cherrington v. Skeeter, 344 F.3d 631,
7
Subsequent to the Gomez decision, the Ninth Circuit declined to
extend the categorical Summers search rule to arrests in Sharp v.
Cty. of Orange, 871 F.3d 901 (9th Cir. 2017). However, the Court observed that

[t]here will surely be circumstances when detention of persons
on, or immediately near, the premises [during service of an arrest
warrant] will be objectively reasonable. After all, entry into a
home for the purpose of arresting an occupant can be a dangerous
effort, and officers ought to have reasonable tools at their disposal to take command of the situation to protect their own safety
and the safety of others. . . . Those tools might include detention

40a
638 (6th Cir. 2003) (“stating in dictum that ‘the police have
the limited authority to briefly detain those on the scene,
even wholly innocent bystanders, as they execute a search
or arrest warrant’ ”)) (emphasis added by Eleventh Circuit) (footnotes omitted). Further, the Eleventh Circuit
has indicated that “this Court has already cited and applied Summers to some extent to analyze what a police
officer may lawfully do at the scene vis-à-vis detaining and
controlling an innocent passenger during a traffic stop of
a vehicle or a bystander on the sidewalk watching a fight.”
Gomez, 601 Fed.Appx. at 847 (citing Hudson v. Hall, 231
F.3d 1289, 1292 (11th Cir. 2000) (passenger during a traffic stop); United States v. Clark, 337 F.3d 1282, 1283 (11th
Cir. 2003) (bystander to a fight)). 8 In those cases, the
of occupants to stabilize the situation while searching for the subject of an arrest warrant or conducting a lawful protective sweep
of the premises.
Id. at 915 (citations omitted).
8

In an unpublished decision, the Eleventh Circuit noted that,
[F]or safety reasons, officers may . . . briefly detain individuals
about whom they have no individualized reasonable suspicion of
criminal activity in the course of conducting a valid [investigatory] stop as to other reasonable suspicion of criminal activity in
the course of conducting a valid [investigatory] stop as to other
related individuals,” particularly when the officers are—as they
were here—operating in “the known presence of firearms.”
United States v. Lewis, 674 F.3d 1298, 1306, 1309 (11th Cir. 2012);
see also Maryland v. Wilson, 519 U.S. 408, 415, 117 S.Ct. 882, 886,
137 L.Ed.2d 41 (1997) (holding that an officer making a valid traffic stop of a driver “may order passengers to get out of the car
pending completion of the stop” to ensure officer safety); Michigan v. Summers, 452 U.S. 692, 702–03, 101 S.Ct. 2587, 2594, 69
L.Ed.2d 340 (1981) (holding that officers conducting a valid
search of a residence may detain an occupant without probable
cause in order to minimize “[t]he risk of harm to both the police
and the occupants”); United States v. Clark, 337 F.3d 1282, 1285
(11th Cir. 2003) (“[A]n officer may ‘control’ persons not suspected

41a
Court pointed out, it “has noted that, ‘[a]s the Supreme
Court has recognized, a police officer performing his lawful duties may direct and control—to some extent—the
movements and location of persons nearby, even persons
that the officer may have no reason to suspect of wrongdoing.’ ” Gomez, 601 Fed.Appx. at 847 (citing Hudson, 231
F.3d at 1297 (citing, inter alia, Summers, 452 U.S. at 702–
03, 101 S.Ct. 2587); and Clark, 337 F.3d at 1286–87 (“citing
Summers and stating that the Supreme Court held that
the risk of harm to officers is minimized when police officers exercise unquestioned command of the situation”)
(footnote and internal marks omitted). Based on these
cases, the Court in Gomez decided that the officer involved there “lawfully and reasonably directed and controlled the movement of [the defendant] in conjunction
with the safe and efficient execution of [an] arrest warrant,” without “reach[ing] the issue of whether to adopt
Summers’s broad, categorical rule for all arrest-warrant
cases,” “decid[ing] only that, under the totality of the
of wrongdoing if they are near a street encounter with persons
reasonably suspected of criminal activity.”); Hudson v. Hall, 231
F.3d 1289, 1297 (11th Cir. 2000) (“[A] police officer performing
his lawful duties may direct and control—to some extent—the
movements and location of persons nearby, even persons that the
officer may have no reason to suspect of wrongdoing.”); State v.
Cromatie, 668 So.2d 1075, 1077 (Fla. 2d DCA 1996) (holding that
an officer conducting a valid traffic stop could “detain all occupants of the car until he completed the search”); Williams v.
State, 640 So.2d 1206, 1208 (Fla. 2d DCA 1994) (holding that an
officer who had probable cause to arrest a fleeing car occupant
could briefly detain the other occupants while he gave chase because it was “a reasonable and necessary response to the exigent
circumstances confronting the deputy that demanded immediate
action”).
Bartley v. Kim’s Enter. of Orlando, Inc., 568 Fed.Appx. 827, 835–36
(11th Cir. 2014) (brackets in original).

42a
facts . . ., [the officer] did not act unlawfully in detaining
[the defendant].” Gomez, 601 Fed.Appx. at 849 (temporary detention of defendant outside his residence while
police were executing an arrest warrant for his father at
the residence was permissible, where defendant was in
the immediate vicinity of the execution of the arrest warrant, and, prior to being detained, defendant engaged the
officer verbally and unintentionally bumped into the officer). 9
Similarly, this court concludes that, under the totality
of the facts in this case, the officers reasonably seized defendant and briefly controlled his movement by directing
him to take his hands out of his pocket, place them over
See also United States v. Ocean, 564 Fed.Appx. 765, 770 (6th Cir.
2014) (“this court held that the limited detention rule specified by the
Supreme Court in Summers applies to the execution of arrest warrants in addition to search warrants.”) (quoting Cherrington, 344
F.3d at 638 (“[T]he police have the limited authority to briefly detain
those on the scene, even wholly innocent bystanders, as they execute
a search or arrest warrant.”) (internal citations omitted)); United
States v. Kinzalow, 236 Fed.Appx. 414, 418 (10th Cir. 2007) (“Where
an individual is in an area immediately adjoining the arrestee, the individual may be placed in temporary protective detention even in the
absence of probable cause or a reasonable suspicion that the individual poses a threat to officer safety.”); United States v. Maddox, 388
F.3d 1356, 1363 (10th Cir. 2004) (citation omitted)(“[T]he governmental interest in securing the area around [the arrestee] and protecting
officers from potential danger is sufficient to justify the temporary
detention of [the bystander].”); Adams v. Springmeyer, 17 F.Supp.3d
478, 502 (W.D. Pa. 2014) (“Given that police officers executing arrest
warrants frequently encounter the same dangers faced by those executing search warrants, the Court is convinced that Summers extends far enough to authorize the temporary detention of individuals
residing within a house being entered under the authority of Payton.”); Anderson v. United States, 107 F.Supp.2d 191, 199 (E.D.N.Y.
2000) (“police are entitled to briefly detain individuals on the premises
when a valid arrest warrant is executed.”).
9

43a
his head, and crawl out of the doorway into the hall, in order to minimize the risk of harm to the officers and facilitate the orderly service of the arrest warrants. The officers were performing their lawful duties, and defendant
was in the immediate vicinity of the area in which the officers intended to attempt to serve the warrants. See
Gomez, 601 Fed.Appx. at 847 (“Limiting the rule in Summers to the area in which an occupant poses a real threat
to the safe and efficient execution of a search warrant ensures that the scope of the detention incident to a search
is confined to its underlying justification.”) (quoting Bailey v. United States, 568 U.S. 186, 201, 133 S.Ct. 1031, 185
L.Ed.2d 19 (2013)). The warrants were for first degree
robbery, which is a class A felony and a crime of violence
under Alabama law; by definition, first degree robbery is
a robbery committed by a person armed with a deadly
weapon or dangerous instrument. See Ala. Code §§ 12-2532(15)(a)(28), 13A-8-41(a)(1). A homicide which officers
believed to be related to the robbery had occurred on the
day following the robbery, and the officers could reasonably expect that the subjects of the arrest warrants, if
found, might be armed. Defendant was observed in the
doorway of the hotel room of the girlfriend of one of the
suspects, and the officers had reason to be concerned that
he also might be armed because they could not see his
hands. In addition, at least one person—Nakita Rogers—
was directly behind the defendant, and the officers could
not immediately determine who else was in the room; it
was eminently reasonable for them to cause the occupants
to come out into the corridor in a controlled and orderly
manner that was safe for everyone involved. Cf. Gomez,
601 Fed.Appx. at 846 (“during a house search, the risk of
harm to both the police and the occupants is minimized if
the officers routinely exercise unquestioned command of
the situation.”) (citation and internal marks omitted).

44a
Thus, the court finds no Fourth Amendment violation in
the initial seizure of the defendant.
The court now turns to the final actions of the officers
during their encounter with the defendant which implicated the Fourth Amendment. The first of these is the seizure of the Para 9mm handgun that fell from defendant’s
waistband as he crawled into the hallway of the hotel. The
second is defendant’s detention and criminal background
check after the discovery of the weapon.
4. Seizure of Defendant’s Weapon
The first of these actions need not detain us for long.
The court has no hesitation in finding that, when defendant’s handgun fell into the hallway from his waistband,
and task force officer Onofry stepped on the gun and
pulled it out of the defendant’s reach, officers were constitutionally entitled to do so. However, this is not because
the weapon could lawfully be seized under ordinary “plain
view” analysis, as the government suggested during argument at the suppression hearing. It is well settled that
“objects such as weapons or contraband found in a public
place may be seized by the police without a warrant. The
seizure of property in plain view involves no invasion of
privacy and is presumptively reasonable, assuming that
there is probable cause to associate the property with
criminal activity.” Payton, 445 U.S. at 587, 100 S.Ct. 1371
(emphasis added). As the Supreme Court has explained,
It is, of course, an essential predicate to any valid warrantless seizure of incriminating evidence that the officer did not violate the Fourth Amendment in arriving
at the place from which the evidence could be plainly
viewed. There are, moreover, two additional conditions that must be satisfied to justify the warrantless
seizure. First, not only must the item be in plain view;

45a
its incriminating character must also be immediately
apparent.
Horton v. California, 496 U.S. 128, 136, 110 S.Ct. 2301,
110 L.Ed.2d 112 (1990) (citations and internal marks omitted). For the incriminating character of an item to be “immediately apparent,” police must have probable cause to
believe the object in plain view is contraband or evidence
of a crime. Minnesota v. Dickerson, 508 U.S. 366, 374-75,
113 S.Ct. 2130, 124 L.Ed.2d 334 (1993). Here, although the
officers were lawfully present in the hallway, and the
weapon appeared in plain view when it fell, its incriminating character was not immediately apparent. While the
“immediately apparent” test “ ‘merely requires that the
facts available to the officer would warrant a man of reasonable caution in the belief that certain items may be
contraband,’ ” and “[a] firearm that reasonably appears to
be in the possession of a convicted felon qualifies as contraband—and is therefore subject to seizure under the
plain view doctrine,” United States v. Folk, 754 F.3d 905,
912 (11th Cir. 2014) (citation omitted), nothing on the record before the court indicates that officers knew or harbored a particularized suspicion that defendant was a convicted felon at the time that the weapon was seized.
United States v. Lewis, 674 F.3d 1298, 1304–05 (11th Cir.
2012) (“it is by now well-settled law that the reasonable
suspicion inquiry focuses on the information available to
the officers at the time of the stop . . . not information that
the officers might later discover.”) (citations omitted).
However, in the context of the execution of a lawful
search warrant—and also, this court concludes, during an
attempt to execute a lawful arrest warrant, as in this
case—the government’s substantial interest in minimizing the risk of harm to law enforcement officers may justify the minimal intrusion on the defendant’s Fourth

46a
Amendment interests occasioned by the seizure of a handgun. Reasonableness is always the touchstone of Fourth
Amendment analysis, and “reasonableness is generally
assessed by carefully weighing the nature and quality of
the intrusion on the individual’s Fourth Amendment interests against the importance of the governmental interests alleged to justify the intrusion.” Cty. of Los Angeles,
Calif. v. Mendez, ––– U.S. ––––, 137 S.Ct. 1539, 1546, 198
L.Ed.2d 52 (2017) (citation and internal marks omitted).
Here, the “Fourth Amendment interest” upon which the
government intruded was defendant’s “possessory interest in the handgun.” United States v. Lewis, 864 F.3d 937,
945 (8th Cir. 2017). At this stage of the encounter, however, the officers took possession of defendant’s handgun
only for the limited purpose of ensuring their safety while
they attempted to serve the arrest warrants, and the
weapon was not removed from defendant’s person or his
home, or even from the hotel room, but from the floor in a
public hallway. Weighed against this slight intrusion on
the defendant’s rights is the government’s substantial interest in minimizing the risk of harm to the officers and
the public. See id. (citing Bailey v. U.S., 568 U.S. 186, 194,
133 S.Ct. 1031, 185 L.Ed.2d 19 (2013) (recognizing the
government’s interest in minimizing the risk of harm to
officers), and Terry, 392 U.S. at 23, 88 S.Ct. 1868 (“We are
now concerned with more than the governmental interest
in investigating crime; in addition, there is the more immediate interest of the police officer in taking steps to assure himself that the person with whom he is dealing is
not armed with a weapon that could unexpectedly and fatally be used against him.”)); see also Florida v. J.L., 529
U.S. 266, 272, 120 S.Ct. 1375, 146 L.Ed.2d 254 (2000)
(“Firearms are dangerous, and extraordinary dangers
sometimes justify unusual precautions. Our decisions recognize the serious threat that armed criminals pose to

47a
public safety[.]”); Pennsylvania v. Mimms, 434 U.S. 106,
112, 98 S.Ct. 330, 54 L.Ed.2d 331 (1977) (per curiam) (observing that armed suspects “pose[ ] a serious and present
danger to the safety of the officer.”); United States v. Gibson, 64 F.3d 617, 624 (11th Cir. 1995) (“Law enforcement
officers are at greatest risk when dealing with potentially
armed individuals because they are the first to confront
this perilous and unpredictable situation.”). The government’s interest in minimizing the risk of harm to the officers was particularly heightened where, as here, the defendant did not immediately disclose the weapon, which
instead fell accidentally from concealment on his person
during the course of a rapidly developing situation, and
did so within defendant’s reach. Given the substantial governmental interest in officer safety, and the minimal intrusion on Fourth Amendment interests involved here,
this court agrees with the Sixth, Eighth, and Tenth Circuits that—at least under these circumstances—a police
officer who discovers a weapon in plain view may temporarily seize that weapon if a reasonable officer would believe, based on specific and articulable facts, that the
weapon poses an immediate threat to officer or public
safety. See Lewis, 864 F.3d at 947; United States v. Gordon, 741 F.3d 64, 71 (10th Cir. 2014); United States v. Flores, 193 Fed.Appx. 597, 604–05 (6th Cir. 2006); United
States v. Harris, 158 Fed.Appx. 719, 725–26 (6th Cir.
2005); United States v. Frederick, 152 Fed.Appx. 470, 472
(6th Cir. 2005); United States v. Bishop, 338 F.3d 623, 628
(6th Cir. 2003); United States v. Robinson, 756 F.2d 56, 60
(8th Cir. 1985); United States v. Malachesen, 597 F.2d
1232, 1234–35 (8th Cir. 1979). See also Maryland v. Buie,
494 U.S. 325, 333, 110 S.Ct. 1093, 108 L.Ed.2d 276 (1990)
(“In Terry and Long we were concerned with the immediate interest of the police officers in taking steps to assure
themselves that the persons with whom they were dealing

48a
were not armed with, or able to gain immediate control of,
a weapon that could unexpectedly and fatally be used
against them. In the instant case, there is an analogous
interest of the officers in taking steps to assure themselves that the house in which a suspect is being, or has
just been, arrested is not harboring other persons who are
dangerous and who could unexpectedly launch an attack.”) (arrest context); United States v. Newsome, 475
F.3d 1221, 1226 (11th Cir. 2007) (“the warrantless seizure
of a gun is ‘objectively reasonable’ under the Fourth
Amendment when there is a real concern for the safety of
the officers present or the public at large.”) (citation omitted); United States v. Patel, 2010 WL 742983, at *2 (M.D.
Ala. Feb. 26, 2010), aff’d, 420 Fed.Appx. 899 (11th Cir.
2011) (“During a legal search . . . the temporary seizure,
unloading, and retention of a firearm by a responsible officer is a reasonable precaution to assure the safety of all
persons on the premises of the search, and, alone, justifies
securing the weapon without a warrant. . . . [T]he warrantless seizure of a gun is objectively reasonable under
the Fourth Amendment when there is a real concern for
the safety of the officers present or the public at large.”)
(citations, internal quotation marks and footnote omitted).
Under the circumstances of this case, the court readily
concludes that a reasonable officer engaged in attempting
to serve arrest warrants would have believed, based on
the facts set out above, that the defendant’s weapon posed
an immediate threat to officer or public safety, and that
the officers were justified in seizing it.
5. Detention and Criminal Background Check After the Discovery of the Weapon
After the weapon was seized, defendant was detained
while the officers secured the two female occupants of the
hotel room, whom the officers had also ordered to crawl

49a
to their position in the hall, and also while the officers entered the hotel room to look for anyone else who was the
subject of the arrest warrants. The officers searched this
room “for individuals only.” Defendant’s Ex. 13. During
the search, Officers Byrd and Onofry observed a black
purse sitting on a chair on the right side of the room behind the door. Id. The purse was open, and they “could
plainly see a pink handled firearm and a chrome firearm
sitting in the purse.” Id. In addition, as he moved toward
the rear of the room, Byrd “noticed a second purs[ ]e sitting on the left side of the hotel room that was also open.”
Id. According to Byrd, he could “plainly see the handle of
a silver and black semi-automatic handgun sitting inside
the purse.” Id. After telling the other officers the locations
of these firearms, and completing the search for other occupants in the room, Byrd was notified by another task
force officer that Hines had been taken into custody in the
Expedition that had left the hotel, but that Mock was not
in the car. Id. Hines was found in possession of a Ruger
P90 45 caliber firearm with an extended magazine. Id. In
addition, Byrd was advised that the driver of the Expedition was armed with a Glock 9mm semi-automatic handgun, although he possessed a valid license to carry a concealed weapon. Id.
According to his report, at that time Sgt. Byrd began
to identify the other occupants of the hotel room, and in
this way, he learned defendant’s identity. According to
Byrd, “[i]t was found that Mastin was convicted of Robbery 1st [a felony] in 2010 and was currently on probation.”
Id. Defendant was arrested for the offense currently before the court. Mock was taken into custody later that
night around 5:30 am, at a room in a different hotel that
had been rented by his girlfriend.

50a
With regard to the first portion of this period of defendant’s detention, while the officers completed their
search of the hotel room for any person named in the arrest warrants, the court finds no constitutional infirmity.
The officers’ authority under Summers in the arrest warrant context is a limited authority to direct and control the
movement of persons in conjunction with the safe and efficient execution of an arrest warrant. Gomez, 601
Fed.Appx. at 847. Here, it was entirely reasonable for the
officers to minimize the risk of harm to themselves or others, and to facilitate the orderly attempt to serve valid arrest warrants, by temporarily detaining the defendant
and continuing to secure the premises while they completed their search for individuals named in the warrants.
Officers’ exercise of unquestioned command of the situation was particularly critical here, where defendant had
just revealed himself to be armed, and where the officers
also could reasonably expect that the subjects of the warrants themselves might be armed as well, if one or both
were found in the hotel room. The Fourth Amendment
does not compel an officer to permit individuals “at the
scene of a crime, arrest, or investigation” to “move around
in ways that could jeopardize his safety.” Brendlin v. California, 551 U.S. 249, 258, 127 S.Ct. 2400, 168 L.Ed.2d 132
(2007) (citations omitted).
Further, as to defendant’s continued detention after
this search concluded, the court finds that what initially
was not a lawful Terry stop had ripened into such a stop.
This was a situation in which the scales had tipped, and
officers did have a reasonable suspicion that the defendant was involved in, or was about to be involved in, criminal activity. The court reaches this conclusion based on
several factors. First, in contrast to when the officers first
came onto the scene, defendant had proved himself to be
armed with a 9mm handgun—a discovery not on its own

51a
sufficient to justify detention in a concealed carry state,
see United States v. Ubiles, 224 F.3d 213, 217–18 (3d Cir.
2000), as amended (Sept. 28, 2000), but nevertheless not
an inconsiderable factor in the totality of the circumstances. Second, the fact that defendant’s hands were in
his pocket and, thus, near his waistband, when officers
told him to raise them and get on the ground had acquired
additional significance, once officers became aware that
defendant actually did have a weapon in his waistband.
See United States v. Durrah, 2009 WL 10688823, at *12
(N.D. Ga. May 11, 2009) (“Furtive movements or hand
gestures, when undertaken in response to the presence of
police, may be grounds for reasonable suspicion and fear,
justifying a Terry stop and frisk.”) (citations and internal
marks omitted); see also United States v. Reed, 402
Fed.Appx. 413, 416 (11th Cir. 2010) (“furtive” eye, hand
and body movements and positioning considered in the totality of the circumstances). Third, officers searching the
hotel room for the subjects of the arrest warrants had observed three more handguns within the open purses of the
two female occupants of the room. Finally—immediately
after the room search concluded, but before the three occupants of the hotel room had been identified—officers
learned that Hines had been apprehended, and that both
he and the driver of the Expedition had also been armed
with handguns.
This information, and the reasonable inferences that
could be drawn from it, gave officers the required minimal
level of objective justification for an investigatory stop of
the defendant under the totality of the circumstances.
What had begun merely as a possible association between
defendant and Hines and/or Mock—which might have
been momentary, random, or innocent—had become a
proven connection between the defendant and a man
whom officers believed to be a violent fugitive, wanted

52a
both for a recent first degree robbery, and for questioning
on a related murder that had occurred just the day before.
Indeed, officers now knew for certain that Hines actually
had been present in the hotel room with the defendant
only a short time before. Cf. United States v. Bell, 762
F.2d 495, 498–99 (6th Cir. 1985) (“[W]hile the fact of companionship did not of itself justify [a] frisk . . ., it is not irrelevant to the mix that should be considered in determining whether the agent’s actions were justified.”) (citation
and internal quotation marks omitted). Because of Hines’
confirmed presence there, the officers also had further
reason to believe that the registration of the room in
Hines’ girlfriend’s name very likely was indeed for the
purpose of hiding Hines. Further, not only had defendant
himself been found to be in possession of a weapon, but
officers had learned that the whole group was heavily
armed, with a total of six weapons 10 among the six people
who were in the hotel room just before Hines and the
driver left and the officers approached. In addition, four
of those weapons apparently were being kept at the ready
in the room; defendant’s handgun had been placed in his
waistband, and the guns belonging to the women were being maintained in open purses. Meanwhile, Hines and the
driver were carrying their weapons with them as well,
perhaps also so that those weapons could also be ready for
use. Officers could also reasonably assume, because some
of the group had been left at the room, and Rogers had
not checked out, that both Hines and the defendant (if the
10
The January 21, 2016, memorandum by Officer Byrd lists these
weapons as follows: a Para 9mm handgun (Mastin); a Ruger P90 45
caliber handgun (Hines); a Glock 26 9mm handgun (in the possession
of John Casrell, the driver of the Expedition); a Bersa Thunder 380
caliber handgun (Nakita Rogers); and a Ruger LCP 380 caliber handgun and a Phoenix Arms Raven 25 caliber handgun (Sabrina Rogers).
See Defendant’s Ex. 13.

53a
latter actually were leaving when the door opened, and
had not simply heard the officers setting up in the hallway) intended to return to the room that night and were
not in the process of dispersing. 11 These specific and articulable facts, considered in the totality of the circumstances, would warrant the officers in the reasonable suspicion that defendant, along with the other armed individuals, was participating in, or preparing to participate in,
any of a number of possible crimes: harboring Hines as a
fugitive and hindering his prosecution, resisting Hines’
arrest, defending Hines from possible retribution as a result of the recent robbery or the related murder, exacting
revenge upon persons involved in the swearing out of the
warrants, receiving or selling the stolen property, or carrying out another robbery. Of course, officers are not required to be correct in arriving at such suspicions; the
likelihood of any of these criminal activities “need not rise
to the level required for probable cause, and it falls considerably short of satisfying a preponderance of the evidence standard,” United States v. Bautista-Silva, 567
F.3d 1266, 1272 (11th Cir. 2009). See also Heien v. North
Carolina, ––– U.S. ––––, 135 S.Ct. 530, 536, 190 L.Ed.2d
475 (2014) (“Reasonable suspicion arises from the combination of an officer’s understanding of the facts and his
understanding of the relevant law. The officer may be reasonably mistaken on either ground.”); United States v.
Scott, 693 Fed.Appx. 835, 836 (11th Cir. 2017) (same).
Such suspicions simply must be reasonable. The Supreme
11
In fact, defendant’s motion to suppress alleged that he intended
to stay at the hotel that night, although no evidence was presented to
this effect at the suppression hearing. See Doc. 57 at 4 (defendant
“was [at the hotel] with his cousins Nakita Rogers and Sabrina Rogers and also his girlfriend, Latifah Warren, who was the third black
female identified by the officers. They had made plans to spend the
night in the room[,] play card games and go to the indoor pool.”).

54a
Court has made it clear that “[t]o be reasonable is not to
be perfect[.]” Heien, ––– U.S. ––––, 135 S.Ct. at 536, 190
L.Ed.2d 475.
The court is well aware, in setting out above the articulable facts and inferences and the possible criminal activities which support a reasonable suspicion under Terry
in this case, that neither Officer Byrd (in testimony), nor
the Assistant U.S. Attorney (in argument), actually articulated many of these facts and inferences, or proposed
any of the particular criminal activities outlined above—
or, for that matter, actually contended that the officers arrived at a reasonable suspicion on this specific basis. This
rather significant omission cannot be commended as good
practice, but, again, the error is not fatal under controlling
precedent. Terry refers to “articulable” rather than “articulated” facts, to which the officer simply must be able
to point, Terry, 392 U.S. at 21, 88 S.Ct. 1868, 12 and the Supreme Court and the Eleventh Circuit have clearly stated
that the standard that the court must apply is an objective
one. See id. at 21-22, 88 S.Ct. 1868 (In assessing reasonable suspicion, “it is imperative that the facts be judged
against an objective standard: would the facts available to
the officer at the moment of the seizure or the search warrant a man of reasonable caution in the belief that the action taken was appropriate?”) (citation and internal marks
omitted); United States v. Harris, 526 F.3d 1334, 1338
(11th Cir. 2008) (“[T]he issue is not whether the particular
officer involved actually and subjectively had the perti-

12
But see Illinois v. Wardlow, 528 U.S. 119, 140, 120 S.Ct. 673, 145
L.Ed.2d 570 (2000) (“It is the State’s burden to articulate facts sufficient to support reasonable suspicion.”) (Stevens, J., joined by Souter,
J., Ginsburg, J., and Breyer, J., concurring in part and dissenting in
part) (citations omitted).

55a
nent reasonable suspicion, but whether, given the circumstances, reasonable suspicion objectively existed to justify
the investigatory stop.”) (citation and internal marks
omitted); United States v. Nunez, 455 F.3d 1223, 1226
(11th Cir. 2006) (“[W]hether reasonable suspicion existed
at the time of the investigatory stop is a question of law to
be determined ultimately by judges, not policemen. . . .
[T]he question . . . is not whether a specific arresting officer . . . actually and subjectively had the pertinent reasonable suspicion, but whether, given the circumstances,
reasonable suspicion objectively existed to justify such a
search.”) (citation and internal marks omitted); Justice v.
Peachtree City, 961 F.2d 188, 193 (11th Cir. 1992) (“it is
for the court . . . ultimately to resolve whether, under the
facts available to the law enforcement officer, the legal
standard for reasonable suspicion was met.”) (citation and
internal marks omitted). 13 Under the totality of the circumstances discussed above, the court concludes that the
facts available to the officers at the moment of the seizure
warranted a person of reasonable caution in the belief that
defendant’s detention was appropriate, and that, given
the circumstances, reasonable suspicion objectively existed to justify the investigatory stop.
6. Identification and Computer Check
The remaining question before the court relating to
defendant’s detention is whether or not officers lawfully
identified the defendant and thereafter ran the computer
13
See also United States v. Brown, 232 F.3d 589, 594 (7th Cir. 2000)
(“It is important to remember that we are not limited to what the
stopping officer says or to evidence of his subjective rationale; rather,
we look to the record as a whole to determine what facts were known
to the officer and then consider whether a reasonable officer in those
circumstances would have been suspicious.”) (citation and internal
marks omitted).

56a
check which indicated that he had been convicted of robbery first in 2010 and was currently on probation—and
therefore, that he was prohibited by law from possessing
a firearm.
With regard to the identification of the defendant, the
Supreme Court has “concluded that if there are articulable facts supporting a reasonable suspicion that a person
has committed a criminal offense, that person may be
stopped in order to identify him, to question him briefly,
or to detain him briefly while attempting to obtain additional information.” Hayes v. Florida, 470 U.S. 811, at 816,
105 S.Ct. 1643, 84 L.Ed.2d 705 (1985). The Court has determined that “it is well established that an officer may
ask a suspect to identify himself in the course of a Terry
stop[.]” Hiibel v. Sixth Judicial Dist. Court of Nevada,
Humboldt Cty., 542 U.S. 177, 186, 124 S.Ct. 2451, 159
L.Ed.2d 292 (2004); see also id. (“questions concerning a
suspect’s identity are a routine and accepted part of many
Terry stops.”). Thus, the court finds no error in the identification.
As to the computer check for warrants and criminal
history run by officers which established that defendant
was a felon in possession of a weapon, the Hiibel Court
implicitly acknowledged that using a suspect’s identity to
conduct such a check during a stop serves important government interests. See id. (“Obtaining a suspect’s name in
the course of a Terry stop serves important government
interests. Knowledge of identity may inform an officer
that a suspect is wanted for another offense, or has a record of violence or mental disorder. On the other hand,
knowing identity may help clear a suspect and allow the
police to concentrate their efforts elsewhere.”). Further,
under some circumstances, an arrest history indicating
that a suspect is “a convicted felon, and that he had been

57a
arrested for numerous felonies, including burglary, homicide, and weapons violations” may justify an officer’s call
for backup out of concern for his safety. United States v.
Lester, 477 Fed.Appx. 697, 699 (11th Cir. 2012). By “determining whether a detained motorist has a criminal record or outstanding warrants, an officer will be better appri[s]ed of whether the detained motorist might engage in
violent activity during the stop.” United States v. Burleson, 657 F.3d 1040, 1046 (10th Cir. 2011) (citation and
internal marks omitted).
In the traffic context, “[i]t is well established that officers conducting a traffic stop may take such steps as
[are] reasonably necessary to protect their personal
safety[,]” that they “may prolong the detention to investigate the driver’s license and the vehicle registration,” and
that they “may do so by requesting a computer check.”
United States v. Purcell, 236 F.3d 1274, 1277–78 (11th Cir.
2001) (citations and internal marks omitted); see also Rodriguez v. United States, ––– U.S. ––––, 135 S.Ct. 1609,
1615, 191 L.Ed.2d 492 (2015) (“Beyond determining
whether to issue a traffic ticket, an officer’s mission includes ordinary inquiries incident to the traffic stop. . . .
Typically such inquiries involve checking the driver’s license, determining whether there are outstanding warrants against the driver, and inspecting the automobile’s
registration and proof of insurance.”) (citations and internal marks omitted). “Many courts have recognized that
knowledge of the criminal histories of a vehicle’s occupants will often be relevant to that safety.” Purcell, 236
F.3d at 1278 (citations omitted); see also United States v.
Young, 707 F.3d 598, 606 (6th Cir. 2012) (“[S]ome of our
sister circuits have expressly held that officers do not exceed the permissible scope of a Terry stop by running a
warrant check, even when the warrant check is unrelated
to the crime suspected. . . . This procedure may help clear

58a
a person’s name or may give the officers important information about the suspect. . . . We find this persuasive and,
accordingly, hold that the officers here did not exceed the
reasonable scope of a Terry stop by running a warrant
check.”) (citations omitted); United States v. Simmons,
172 F.3d 775, 778 (11th Cir. 1999) (“Once the police had
validly detained [the suspect], plainly they were entitled
under the decisional law to conduct a variety of checks on
the driver and his car, including questioning the driver
about the traffic violation, requesting consent to search
the car, and running a computer check for outstanding
warrants.”) (citations omitted). However, “as in most issues relating to the constitutionality of a traffic stop, . . .
bright-line rules are inadvisable. The Supreme Court has
‘long held that the ‘touchstone of the Fourth Amendment
is reasonableness.’ . . . Under some circumstances a criminal record request might lengthen a traffic stop beyond
what is reasonable in a particular case.” Purcell, 236 F.3d
at 1278–79; see also Rodriguez, ––– U.S. ––––, 135 S.Ct. at
1615, 191 L.Ed.2d 492 (2015) (“An officer . . . may conduct
certain unrelated checks during an otherwise lawful traffic stop. But . . . he may not do so in a way that prolongs
the stop, absent the reasonable suspicion ordinarily demanded to justify detaining an individual.”).
Although “[t]raffic stops are especially fraught with
danger to police officers,” Rodriguez, ––– U.S. ––––, 135
S.Ct. at 1616, 191 L.Ed.2d 492 (citation and internal
marks omitted), officer safety “ ‘is just as strongly implicated where the individual being detained for a short period of time is on foot, rather than in an automobile,’ ” and
thus, “[a]n officer detaining a pedestrian has an equally
strong interest in knowing whether that individual has a
violent past or is currently wanted on outstanding warrants.” Burleson, 657 F.3d at 1046 (citation omitted). Also,

59a
“the pedestrian’s interest is no more robust merely because a short detention occurs while traversing on foot.”
Id. (citation and internal marks omitted). “ ‘[P]ermitting
a warrants check during a Terry stop on the street also
promotes the strong government interest in solving
crimes and bringing offenders to justice.’ ” Id. (citation
and internal marks omitted). “ ‘[A]n identity’s utility in informing an officer that a suspect is wanted for another offense, or has a record of violence or mental disorder,
would be non-existent without the ability to use the identity to run a criminal background check.’ ” Id. at 1046-47
(citation omitted). In sum, “the same rationale . . . as to
the permissibility of warrants checks in the motorist context applies with equal force in the pedestrian context.”
Id. at 1047.
In the instant case, the risk of violence from defendant
during the stop was substantially reduced by the presence
in the hallway of five to eight Task Force officers, all of
whom the court presumes to have been very well armed.
On the other hand, two other occupants of the room were
also present—both of whom had been found to have handguns in the hotel room—and those guns had not yet been
collected by the officers at the time that defendant’s criminal history was checked. The hotel hallway was a public
corridor, which could have been entered at any time by
bystanders or hotel staff. Further, Hines and Mock both
had violent criminal histories, including a possible connection to a murder occurring just the day before, and while
Hines had been apprehended by this time, officers knew
that Mock remained at large. Given his association with
Hines, Mock could have arrived at the hotel room at any
moment. In addition, defendant’s detention—even in
handcuffs, if that was the case (no evidence was presented
on this point)—would not entirely prevent him from
charging the officers, attempting to run, seeking to obtain

60a
a weapon either from one of the officers or from the hotel
room, or joining others such as the two females or Mock
in resisting if the opportunity arose. See United States v.
Clark, 2016 WL 3945131, at *3 (D. Me. July 19, 2016),
aff’d, 2016 WL 4532062 (D. Me. Aug. 29, 2016) (“Handcuffing a suspect reduces, but does not eliminate, officer
safety concerns. A handcuffed suspect can still reach for a
weapon in his or her waistband or pockets, charge an officer, or sometimes even escape from handcuffs.”). Further, if defendant had been released with his handgun, he
might have been able to join Mock and assist him in avoiding or resisting arrest, or in retaliating against those involved in obtaining the warrants, if he were so inclined.
Thus, the court concludes that it was objectively reasonable under these specific circumstances for officers to take
the minimally intrusive step of running defendant’s criminal history for the purpose of assessing the risk that he
might engage in violent behavior during the stop. 14 Purcell, 236 F.3d at 1278 (“The request for criminal histories
as part of a routine computer check is justified for officer
safety. It is both reasonable and minimally intrusive.”);
see also United States v. Cone, 868 F.3d 1150, 1153 (10th
Cir. 2017) (“[R]unning a computer check of a driver’s
criminal history is justifiable as a negligibly burdensome
inquiry useful for officer safety. . . .”) (citation and internal marks omitted). 15

14
Once again, the court is aware that neither the officers nor the
government actually articulated the officer safety concerns addressed above. Sgt. Byrd indicated only that the computer check was
run “for warrants and to make sure defendant was not wanted,” and
did not explain why. The court has again applied an objective standard.

Nothing in the record establishes how long the stop may have
been prolonged, if at all, to check defendant’s criminal history. Officer
15

61a
7. Defendant’s Post-Arrest Statements
Having concluded that the weapon seized from defendant in this case is not due to be suppressed, the court
must address whether any additional evidence warrants
suppression. Defendant’s motion, which is styled as a motion to suppress “tangible evidence” (Doc. 57), asks the
court to “issue an [o]rder suppressing all tangible evidence, in addition to any derivative evidence (or “fruit”) of
those items and statements, obtained by the United
States, as a result of the unlawful search . . . .” Id. at 1, 88
S.Ct. 1868. Defendant “prays that [his] motion be granted
and the firearm at issue in this case[,] along with any other
tangible evidence[,] be suppressed as fruit of the illegal
search.” Id. at 6, 88 S.Ct. 1868. Defendant does not identify or otherwise describe any such “tangible evidence,”
with the exception of the firearm.
At the suppression hearing, the court asked defense
counsel if the evidence to be suppressed was “just the
weapon” or if there were “any other evidence.” Defense
counsel responded as follows: “[O]ur contention would be
primarily the weapon, but the mere fact of entering the

Byrd’s memorandum seems to indicate that the computer check occurred immediately after the hotel room occupants were identified,
but before the Criminal Investigations Division was contacted, the
weapons actually were collected from the room, and the officers attempted to seek consent to search from the female occupants. Defendant’s Ex. 13. The court cannot conclude, on the evidence before
it, that the stop was unreasonably prolonged, or that the officers’ reasonable suspicion for the investigatory Terry stop had been dispelled
or had evaporated at the time of the computer check. Purcell, 236
F.3d at 1279 (“So long as the computer check does not prolong the
traffic stop beyond a reasonable amount of time under the circumstances of the stop, the inclusion of a request for criminal histories
does not constitute a Fourth Amendment violation.”).

62a
hotel room also led to other derivative evidence[,] including statements at the police station. So[,] we would say the
main[,] fundamental problem of violating the [Fourth]
Amendment at the hotel room primarily led to the need to
suppress the gun but [also] the derivative evidence.” The
court asked defense counsel who it was that made statements at the police station. Counsel responded that defendant “gave a statement on January 20th, 2016, at
CID. 16 And then on January 21st, 2016, at the county.”
During the evidentiary hearing, defense counsel had
the opportunity to present evidence and witnesses, crossexamine witnesses, and offer oral argument. However, at
no time during the hearing did counsel explain why defendant’s two statements should be suppressed, with the
exception of his reference to these as “derivative.” As the
record now stands, the court knows nothing about these
statements, except that they were made on January 20
and 21, 2016, at “CID” and “the county.” The court has not
been informed of the time at which the statements were
given, how much time elapsed between the seizure of the
weapon and the statements, whether the statements were
made during an interview by police, whether the defendant was in custody when he made the statements, whether
the defendant was Mirandized prior to making the statements, whether the statements were voluntary, or even
whether the statements were incriminating. Furthermore, defendant has made no specific argument whatsoever as to why the statements were derivative—or the
“fruit”—of the seizure or whether they somehow stood
alone.

16
This acronym commonly stands for “Criminal Investigation Division.”

63a
The court acknowledges the Supreme Court’s holding
in Wong Sun v. United States, 371 U.S. 471, 485, 83 S.Ct.
407, 9 L.Ed.2d 441 (1963), in which the Court applied the
exclusionary rule to verbal statements, finding that “verbal evidence which derives . . . immediately from an unlawful entry and an unauthorized arrest . . . is no less the
‘fruit’ of official illegality than the more common tangible
fruits of the unwarranted intrusion.” (footnote and citation omitted). However, the court has no argument before
it even suggesting that defendant’s statements “derived
immediately” from the officers’ seizure in this case, nor
has it concluded that this seizure was unlawful. Accordingly, defendant has failed to meet his burden to present
the court with evidence and argument to support a finding
that the statements are due to be suppressed. See United
States v. Edwards, 563 F.Supp.2d 977, 994 (D. Minn. 2008)
(“At the end of the day, as the moving party, at a minimum
it is defendant’s burden to come forth with some evidence
and argument to support his position that evidence, statements or a witness identification should be suppressed.”);
see also United States v. Diezel, 608 F.2d 204, 207 (5th Cir.
1979) (“As this Court said in United States v. Evans, . . .
‘The burden is on the movant to make specific factual allegations of illegality, to produce evidence, and to persuade the court that the evidence should be
suppressed.’ ”) (citation omitted); United States de la
Fuente, 548 F.2d 528, 533 (5th Cir. 1977) (“It is well established that the burdens of production and persuasion generally rest upon the movant in a suppression hearing.”). 17
17
“In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir.
1981) (en banc), we adopted as binding precedent all decisions of the
former Fifth Circuit handed down before October 1, 1981.” Tech.
Training Assocs., Inc. v. Buccaneers Ltd. P’ship, 874 F.3d 692, 697
n.2 (11th Cir. 2017).

64a
Accordingly, to the extent that the motion can be construed as seeking to suppress defendant’s statements, it
is due to be denied.
Accordingly, it is the RECOMMENDATION of the
Magistrate Judge that defendant’s motion to suppress
(Doc. 57) be DENIED. It is further ORDERED that on
or before January 16, 2018, the parties may file an objection to the Recommendation. Any objection filed must
specifically identify the findings in the Magistrate Judge’s
Recommendation to which the party filing the objection
objects. Frivolous, conclusive or general objections will
not be considered by the District Court.
Failure to file a written objection to the Magistrate
Judge’s findings and recommendations under 28 U.S.C.
§ 636(b)(1) shall bar a de novo determination by the District Court of legal and factual issues covered in the Recommendation and waives the right of a party to challenge
on appeal the district court’s order based on unobjectedto factual and legal conclusions accepted or adopted by the
District Court except upon grounds of plain error or manifest injustice. 11th Cir. R. 3-1; Resolution Trust Co. v.
Hallmark Builders, Inc., 996 F.2d 1144, 1149 (11th Cir.
1993); Henley v. Johnson, 885 F.2d 790, 794 (11th Cir.
1989).
DONE, on this the 2nd day of January, 2018.

